231 1 Douglas Street
Omaha, Nebraska 68 J02- 12 14

E-Mail Address:
contact@cock lelega lbriefs.com

1-800-225-6964
(402) 342-283 1
Fax: (402) 342-4850

Web Site
v.rww.cock lelegalbriefs.com

No. 21-84
FOUNDATION FOR INDIVIDUAL
RIGHTS IN EDUCATION, ET AL. ,
Petitioners,
v.
VICTIM RIGHTS LAW CENTER, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the BRIEF OF THE INSTITUTE
FOR JUSTI CE AS AMICUS CURIAE IN SUPPORT OF PETITIONERS in the above entitled
case complies with the typeface requirement of Supreme Court Rule 33.l(b), being prepared in
New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief
contains 4380 words, excluding the parts that are exempted by Supreme Court Rule 33.l(d), as
needed.

Subscribed and sworn to before me this 20th day of August, 202 1.
I am du ly authorized under the laws of the State of Nebraska to administer oaths.

NERAI. NOTARY-State of ltlbraska
RENEE J. GOSS
My Comm. Exp. Septamber 5, 2023

Affiant

4 1287

